No. 20-1775

In the Supreme Court of the United States
THE STATE OF ARIZONA, ET AL., Petitioners,
v.
CITY AND COUNTY OF SAN FRANCISCO, ET AL., Respondents.

CERTIFICATE OF SERVICE

I, Helen H. Hong, Deputy Solicitor General, a member of the Bar of this Court
hereby certify that on July 9, 2021, the Motion for an Extension of Time of the States
of California, Maine, Oregon, Pennsylvania, and the District of Columbia in the
above-entitled matter was filed with the electronic filing system and a copy was
provided for first class mail delivery to:
Brunn W. Roysden III
Solicitor General
Office of the Arizona Attorney General
2005 N. Central Ave.
Phoeniz, AZ 85004
Beau.Roysden@azag.gov
Counsel for Petitioners
Sara J. Eisenberg
Deputy City Attorney
City Hall Room 234
1 Dr. Carlton B. Goodlett Place
San Francisco, CA 94102
sara.eisenberg@sfcityatty.org
Counsel for City and County of
San Francisco

Elizabeth Prelogar
Acting Solicitor General
Room 5616
Department of Justice
950 Pennsylvania Ave., NW
Washington, D.C. 20530-0001
SupremeCtBriefs@usdoj.gov
Counsel for Federal Respondents

Jeff T. Sprung
Assistant Attorney General
Office of the Washington Attorney General
800 Fifth Avenue, Suite 2000
Seattle, WA 98104
jeff.sprung@atg.wa.gov
Counsel for the State of Washington, et al.
I further certify that all parties required to be served have been served.
/s/ Helen H. Hong
HELEN H. HONG
Deputy Solicitor General
Office of the Attorney General
600 West Broadway, Ste. 1800
San Diego, CA 92101
Telephone: (619) 738-9693
Counsel for the State of California

